  OVERSIGHT OF DEPARTMENT OF JUSTICE
EXPENDITURES RELATED TO HURRICANE RITA,
ROOF REPAIR AT THE FEDERAL CORRECTIONAL
       COMPLEX, BEAUMONT, TEXAS



          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division


             Audit Report 06-34
                 June 2006
OVERSIGHT OF DEPARTMENT OF JUSTICE EXPENDITURES
           RELATED TO HURRICANE RITA,
ROOF REPAIR AT THE FEDERAL CORRECTIONAL COMPLEX,
                 BEAUMONT, TEXAS


Introduction

      The Office of the Inspector General, Audit Division, has completed a
limited scope audit of the Federal Bureau of Prisons’ (BOP) Contract Number
DJB50211005. The contract was awarded as a firm fixed price contract for
$5,180,233, to D.K. Haney Construction, Inc., on October 11, 2005, to
repair or replace roofing at the Federal Correctional Complex (FCC)
Beaumont, Texas. The contract was funded from fiscal year 2006 hurricane
supplemental funding. The objectives of the audit were to determine
whether BOP had adequate justification for using a sole source contract,
obtained fair and reasonable pricing, and awarded the contract on an arm’s-
length basis.

      This audit was conducted in coordination with the President’s Council
on Integrity and Efficiency (PCIE) as part of its examination of relief efforts
provided by the federal government in the aftermath of Hurricanes Katrina
and Rita. As such, a copy of the report will be forwarded to the PCIE
Homeland Security Working Group, which is coordinating the Inspectors
General review of this important subject.


Background

        The BOP’s South Central Regional Office located in Dallas, Texas,
provides administrative oversight and support to 21 federal prisons,
including the FCC Beaumont, and 5 community corrections offices. The
Beaumont FCC houses low, medium, and high-security male inmates in
three units — Federal Correctional Institution (FCI) Beaumont Low, FCI
Beaumont Medium, and the United States Penitentiary (USP) Beaumont,
respectively. 1 In addition to the three housing units, FCC Beaumont has a
Central Administration Building and some centrally shared warehouse
facilities. A satellite Federal Prison Camp (Camp) housing minimum-security
male inmates is adjacent to the complex.



      1
         Each unit at FCC Beaumont is managed by a warden. None of the wardens is
designated as the overall warden-in-charge of the FCC.
       On September 24, 2005, Hurricane Rita made landfall 30 miles east of
the complex with maximum sustained winds of 110 miles per hour, causing
extensive damage to the roofing at FCC Beaumont. All of the roofing for the
Low Security Area, the Medium Security Area, the USP, and the Central
Administration Building sustained such extensive damage that replacement
of the roofing was required. The remaining buildings in the FCC, consisting
of the centrally shared warehouses and the Camp, also sustained significant
damage. Officials at FCC Beaumont provided photographs showing
punctures to the roofs resulting from Hurricane Rita (see Appendix I). The
Contracting Officer for this acquisition told us that an extreme emergency
existed at FCC Beaumont because of the large inmate population housed in
the damaged areas. The following table shows the number of inmates
housed at FCC Beaumont at the time of Hurricane Rita and as of our site
visit to the facility on March 13, 2006.

                    FCC BEAUMONT INMATE POPULATION BY HOUSING UNIT
                                (EXCLUDING THE CAMP 2 )

                                               Inmate Population     Inmate Population
                      Housing Unit                on 9/24/2005          on 3/13/2006
            Low Security Unit                                2,015                1,844
            Medium Security Unit                             1,761                  305
            United States Penitentiary (USP)                 1,359                1,327
              Total                                          5,135                3,476
           Source: FCC Beaumont

      On September 24, 2005, 5,135 inmates were housed in the areas to
be repaired under this contract. Following the storm, the Regional Director
and the 3 FCC Beaumont wardens decided to move 1,761 inmates housed at
the Medium Security Unit to other BOP institutions in order decrease the
workload on FCC Beaumont staff. FCC Beaumont staff were also victims of
the hurricane, and needed time off from work to make repairs to their
property, file insurance claims, and to bring home family members displaced
because of the storm. In addition, because of a lack of hotel rooms, staff
from other BOP institutions were temporarily housed at the vacated Medium
Security Unit as part of management’s effort to help FCC Beaumont staff
recover from the storm. At the time of our site visit to FCC Beaumont, staff
temporarily assigned to FCC Beaumont had returned to their duty stations
and 305 inmates had been assigned to the Medium Security Unit.




       2
          In addition to the 5,135 inmates in the higher security units, at the time of the
hurricane FCC Beaumont housed 559 inmates at the Camp. The contract we reviewed did
not include the Camp. A separate contract to replace roofing at the Camp had not been
awarded as of June 13, 2006.



                                                 2
Audit Methodology

      We conducted the audit in accordance with Government Auditing
Standards and included such tests of internal controls, procedures, and
documentation as were considered necessary to accomplish the audit
objectives. Our methodology included a review of applicable contract file
documentation and interviews of staff at the South Central Regional Office in
Dallas, Texas, and the BOP’s Field Acquisition Office in Grand Prairie, Texas.
We also conducted a site visit to FCC Beaumont to interview staff and to
document some of the roofing repairs and replacements (see Appendices II
and III).


Sole Source Contract

       A sole source contract is the result of an agency entering into a
contract after soliciting and negotiating with only one vendor. The Federal
Acquisition Regulation (FAR) requires contracting officers to promote full and
open competition in soliciting offers and awarding government contracts.
However, there are exceptions to the requirement for full and open
competition, such as the allowance for contracting officers to limit
competition to eligible Section 8(a) contractors, which is what was used for
this contract. 3

       To determine whether the subject contract qualified for Section 8(a)
competition, we interviewed the Contracting Officer and reviewed the
contract file. The award was made in accordance with a Partnership
Agreement between the Department of Justice (Department) and the Small
Business Administration (SBA) that defines responsibility for sole source
contracts under the provisions of the SBA Section 8(a) program. Under this
agreement, the SBA is responsible for approving both the terms of the
contract and the Department’s selection of the contractor as a qualified
participant in the SBA’s Section 8(a) program. We found that this process
was properly documented in the contract file. We reviewed the Contracting
Officer’s request to SBA and SBA’s acceptance of the terms of the contract
and approval of the contractor, D.K. Haney Construction, Inc., as a qualified
participant in the SBA’s Section 8(a) program.

      We determined that use of a sole source contract was an acceptable
acquisition method due to the contractor’s status under Section 8(a) of the


       3
          The Small Business Administration defines a certified Section 8(a) firm as a firm
owned and operated by socially and economically disadvantaged individuals and eligible to
receive federal contracts under the SBA’s Section 8(a) Business Development Program.



                                             3
Small Business Act and in accordance with the Partnership Agreement
between the Department and the SBA.


Reasonable Cost

      In negotiated contracts, the FAR requires that contracting officers
purchase supplies and services from responsible sources at fair and
reasonable prices. The FAR also prescribes various methods for ensuring
that the final negotiated price is fair and reasonable.

       To determine whether the subject contract was awarded at a fair and
reasonable price, we interviewed the Contracting Officer and reviewed
applicable documents from the contract file. We reviewed the Contracting
Officer’s cost and profit analysis, price analysis, and the summary of
negotiations from the contract file and determined that they were in
accordance with the FAR and documented that the government received a
fair and reasonable price.

      In the cost and profit analysis, and the price analysis, the Contracting
Officer estimated that the project would cost approximately $6.47 per
square feet by dividing the $5,180,233 from the contractor’s final proposal
by 800,000 square feet. 4 In the same documents, we observed that the
$6.47 per square foot estimated for the FCC Beaumont contract was less
than amounts paid for the Duro-Last roofing on previous contracts for the
South Central Regional Office, which ranged in price from $6.63 per square
foot to $13 per square foot. 5 In addition, we reviewed a memorandum to
the Contracting Officer from the Assistant Administrator for Facilities at the
South Central Regional Office explaining that $6.50 per square foot for
Duro-Last roofing was a more cost effective solution for the government
than $18 per square foot for 3-ply modified bituminous (built-up) roofing
that could have been specified for the FCC Beaumont contract. 6 We also
found the Contracting Officer’s summary of negotiations showed that two
rounds of negotiations were held with the contractor. 7

       4
         The 800,000 square feet used by the Contracting Officer was an approximation,
taken from schematics, provided by Southern Central Regional Office.
       5
          Duro-Last is a thermoplastic film laminated to a polyester fabric that is fastened to
the existing roof deck.
       6
        Bituminous (built-up) roofing consists of multiple layers of saturated roofing felt
capped with asphalt (tar) and aggregate (gravel).
       7
           During each round of negotiation, the scope of the work to be performed was
clarified and the contractor lowered the price from the original bid.



                                               4
      The following table summarizes the final negotiated costs to repair the
roofing at FCC Beaumont.

                      SUMMARY OF THE FINAL NEGOTIATED COST

                            Work to be Performed                     Cost
                  Temporary Roof Repairs                             $80,254
                  Low Security Area                                1,776,779
                  Medium Security Area                             1,597,657
                  USP                                              1,542,863
                  Central Administration Building                    182,680
                  Total                                          $5,180,233
                 Source: BOP, Field Acquisition Office Contract File

       We also found that the BOP has procedures in place to adequately
monitor contract expenses. These procedures require the contractor to
submit certified invoices for payment. The FCC Beaumont Facilities Manager
and Contract Specialist monitoring the work performed by the contractor
review the invoices for work performed and certify that the work was
completed. They then certify and approve the invoices for payment. As of
May 5, 2006, the contractor had received 6 payments totaling $4,721,793 of
the $5,180,233, for completing 91 percent of the work required by the
contract. The contractor had submitted the appropriate signed
documentation, and the Facilities Manager and the Contract Specialist had
certified the work performed and the invoices for payment. The Contract
Specialist stated that the same procedures will be followed when the
contractor submits its final invoice for the remaining 9 percent of the
contract. The following table summarizes the expenses that we reviewed.

                         PROJECT EXPENSES THROUGH 5/5/2006

                    Date             Payment               Amount Remaining
            10/11/2005                                              $5,180,233
            11/25/2005                 $1,713,414                    3,466,819
            12/19/2005                     892,296                   2,574,523
            1/23/2006                      386,311                   2,188,212
            3/6/2006                       624,496                   1,563,716
            3/29/2006                      595,955                     967,761
            4/26/2006                      509,321                     458,440
                    Total              $4,721,793           91% of Total Award
           Source: FCC Beaumont Contract File

      In our judgment, the BOP obtained a fair and reasonable price for the
roofing project. In addition, monitoring of expenses for the project was
adequate to ensure that the contractor had only been paid for work actually
performed and actual expenses did not exceed the contract award amount.
As the contract was awarded as a firm fixed price contract, the risk of cost
overruns is mitigated.


                                              5
Arm’s-Length Transactions

      The standard of arm’s-length transactions includes independence of
the parties involved and the absence of any relationship among the parties,
other than a professional relationship. Transactions conducted on an
arm’s-length basis alleviate concerns regarding conflicts of interest and
undue influence. To determine whether the contract was awarded on an
arm’s-length basis, we interviewed the Contracting Officer, the Section Chief
of the BOP Field Acquisition Office, and FCC Beaumont staff and reviewed
contract file documentation.

        We asked the Contracting Officer and the Section Chief for the BOP
Field Acquisition Office, Construction Contracting Section, to explain how
they ensured that the contract was awarded on an arm’s-length basis. The
Section Chief told us that he reports to BOP Headquarters and not the South
Central Regional Office and considers himself to be independent from South
Central Regional Office management. He also stated that, even though the
Contracting Officer has an office in the South Central Regional Office’s
facility because most of his work must be coordinated with its staff, the
Contracting Officer is also BOP Headquarters staff. In addition, FCC
Beaumont staff told us that they provided no input to the Contracting Officer
on the selection of the sole source contractor. The Contracting Officer
confirmed that he had not discussed the selection of the contractor with FCC
Beaumont personnel.

       The Contracting Officer told us that he has no relationship with the
contractor other than a professional business relationship. The Contracting
Officer and the Section Chief also told us that they have no social
involvement with the contractor and neither had any family members
employed by the contractor. We also reviewed documentation from the
contract file, including a certification of procurement integrity, signed by the
Contracting Officer. The certification is specific to this contract and states
that the contracting officer has no knowledge of a violation or possible
violation of the Federal Procurement Policy Act. This Act prohibits
procurement officials from disclosing procurement information to
unauthorized parties, discussing future non-federal employment with a
bidder on the contract, and accepting anything of value from a bidder on the
contract (this restriction also applies to the official’s family). We consider
these to be essential components of awarding a contract on an arm’s-length
basis.

      We also asked why a contractor from Fort Worth, Texas, was selected
instead of one from Houston or Beaumont, Texas. FCC Beaumont staff
assured us that it was highly unlikely that any Houston area roofing firm
could have responded as quickly as D.K. Haney because there was so much
roof damage in the Houston area.


                                       6
       Based on the organizational structure described to us by the
Contracting Officer and the Section Chief, their statements describing their
relationship with the contractor, and our review of the contract file we
concluded that negotiations for the contract to replace or repair the
damaged roofing at FCC Beaumont were conducted on an arm’s-length
basis.


Conclusion

      In our judgment, BOP’s use of a sole source contract for repair and
replacement of roofing at FCC Beaumont was appropriate, a fair and
reasonable price was obtained, and the contract was awarded on an
arm’s-length basis.


                                 ♦    ♦    ♦

     The overall status of the report is closed. We previously furnished the
BOP with copies of a working draft of this report and requested comments.
The BOP declined to comment because no recommendations were made.




                                      7
                                         APPENDIX I


    EXAMPLES OF DAMAGE CAUSED BY HURRICANE RITA




Source: FCC Beaumont Officials




                                 8
                                                APPENDIX II


                EXAMPLES OF TEMPORARY REPAIRS




Source: FCC Beaumont Officials




                                 9
                                            APPENDIX III


            EXAMPLES OF COMPLETED ROOF REPAIRS




Source: OIG Auditors, March 13, 2006




                                       10
